REVIEW OF THE AWARD PROCESS FOR
 THE OFFICE FOR VICTIMS OF CRIME
   RECOVERY ACT FORMULA AND
 DISCRETIONARY GRANT PROGRAMS
        U.S. Department of Justice
      Office of the Inspector General

              Report 10-19
               March 2010
                                   Table of Contents

Introduction ...................................................................................... 1
Results in Brief .................................................................................. 2
Recovery Act Program Solicitations ................................................... 4
Review of the OVC Recovery Act Applications.................................... 5
  Formula Program Applications ............................................................. 6
  Discretionary Program Applications ...................................................... 6
  Recipients with Incomplete Applications ................................................ 7
Review of the OVC Recovery Act Award Process................................ 7
  Verification of the OVC’s Recovery Act Formula Allocations ...................... 8
  Discretionary Grant Program Award Process ........................................ 10
Conclusion ....................................................................................... 13
Appendix I: OVC Recovery Act Formula Allocations
for the VOCA Victim Compensation Program .................................. 14
Appendix II: OVC Recovery Act Formula Allocations for the VOCA
Victim Assistance Program ............................................................. 15
Appendix III: OVC Recovery Act Awards for the NFG Grant
Program ......................................................................................... 16
Introduction

      The Recovery Act appropriated $100 million to the Office of Justice
Programs’ (OJP) Office for Victims of Crime (OVC). This funding is required
to be administered in accordance with the Victims of Crime Act of 1984
(VOCA). 1 Most of the funding (95 percent) was allocated for formula grant
programs; however, 5 percent was reserved for discretionary programs. 2
The specific VOCA grant programs funded by the Recovery Act are described
below.

   •   Recovery Act funding totaling $47.5 million was distributed among
       eligible state agencies that administer VOCA-funded crime victim
       compensation programs to support the provision of crucial financial
       assistance to victims of crime under the Recovery Act VOCA Victim
       Compensation Formula Grant Program (VOCA Victim Compensation
       Program).

   •   Recovery Act funding totaling $47.5 million was distributed among
       state agencies that administer VOCA-funded crime victim assistance
       programs to support the provision of services to victims of crime under
       the Recovery Act VOCA Victim Assistance Formula Grant Program
       (VOCA Victim Assistance Program).

   •   An additional $5 million was used to make awards under the Recovery
       Act National Field-Generated Training, Technical Assistance, and
       Demonstration Projects Discretionary Grant Program (NFG Grant
       Program). The purpose of this discretionary grant program is to
       develop training, technical assistance, and demonstration projects that
       improve the capacity of victim service providers and allied practitioners
       in advancing rights and services for crime victims.




       1
           42 U.S.C. § 10601 (d)(4) (2006).
       2
          Formula grants are awarded according to the method dictated by statute, which is
usually a formula that specifies how the funds will be allocated among the eligible
recipients. Other grants, known as discretionary grants, are awarded on a competitive basis
or by the discretion of the bureau or program office, depending on applicable statute or the
discretion of the bureau or program office.

                                              -1-
       The Office of the Inspector General (OIG) conducted a review of the
award process of the OVC’s Recovery Act VOCA funds. 3 The objectives of
this review were to:

       •   evaluate the solicitations published by OJP related to the OVC's
           Recovery Act efforts and determine if they include all required
           elements from the Recovery Act,

       •   determine the allocation and application methods for the OVC
           Recovery Act formula awards, and

       •   determine if grants awarded under the NFG Grant Program were
           awarded in a fair and competitive manner. 4

Results in Brief

       We reviewed the OVC’s solicitations and issued a Management
Advisory Memorandum (MAM) dated April 15, 2009, due to concerns we had
regarding the OVC’s guidance to applicants on the collection of data for
Recovery Act reporting requirements. Specifically, to determine jobs
retained through the funding, the VOCA Victim Compensation Program
solicitation instructed award recipients to report the number of claimants
who received Recovery Act funds to help offset economic loss due to
victimization. However, the funding compensates victims for lost wages or
other financial support such as medical expenses, mental health counseling,
or funeral expenses, but in our opinion, does not result in jobs being
retained. Rather, it results in what the Office of Management and Budget
(OMB) has subsequently defined as “induced” jobs associated with Recovery
Act funding. 5

       3
          This report is one of a series of reports that we will issue during our ongoing
review of the Department’s management and oversight of Recovery Act funds allocated to
the VOCA Victim Assistance, VOCA Victim Compensation, and NFG Grant Programs. Our
future work will include a review of the use of VOCA Victim Compensation, VOCA Victim
Assistance, and NFG Grant Program funds by a selected sample of recipients and their sub-
recipients, as applicable.
       4
          This report is a non-audit service as defined by generally accepted government
auditing standard 3.26. The report contains technical advice that is not intended to be used
as the primary basis for management decisions. As a result, this report is not intended to
comply with generally accepted government auditing standards.
       5
          According to OMB Memorandum M-09-21 (June 2009), an “induced” job is that
which is created in the local community as a result of Recovery Act spending. A job
retained is an existing position that would not have been continued to be filled were it not
for Recovery Act funding.

                                            -2-
      We relayed this concern to the OVC in our MAM and suggested that it:
(1) not rely on payments to victims for lost wages as an indication of jobs
retained, (2) provide detailed guidance to grantees on reporting
requirements, and (3) require baseline data from grantees to appropriately
measure the effect of Recovery Act funding. The OVC agreed that this
performance measure would capture induced jobs associated with Recovery
Act spending and stated that it would defer to guidance provided by the
Office and Management and Budget (OMB), issued June 22, 2009, which
states that recipients should report only direct jobs created by Recovery Act
funding. Subsequently, OJP released supplemental guidance to grantees,
and the OVC published guidance on its website clarifying the reporting
requirements in accordance with our comments. OJP also stated to us that
OVC staff will work with grantees to ensure that each grantee gathers
baseline data so that the program has the basic information needed to
measure performance. Therefore, we consider the issues presented to the
OVC in our April 2009 MAM to have been adequately addressed.

       We also reviewed applications submitted under the OVC’s three
Recovery Act programs to determine if applications from award recipients
were complete. All VOCA Victim Assistance and Compensation Program
applications we reviewed were complete. However, we found that one
award recipient under the NFG Grant Program had not submitted a critical
Recovery Act certification. As a result of this omission, the OVC does not
have assurance that this recipient is aware of and will comply with some
requirements of the Recovery Act and the program solicitation. We brought
this concern to the OVC’s attention and it immediately contacted the award
recipient and obtained the missing certification. Therefore, we consider this
issue to have been adequately addressed.

       We reviewed methodology for awarding formula funding under both
the VOCA Victim Compensation and VOCA Victim Assistance Programs, and
found that OJP had made funding allocations to eligible states in accordance
with the appropriate statutory formulas. 6 First, we independently calculated
the allocations used by the OVC to verify the accuracy of these calculations,
and we determined that VOCA Victim Compensation and Assistance Program
funds had been allocated accurately and in accordance with VOCA. In
addition, we confirmed that the awards made under both the VOCA Victim
Compensation and VOCA Victim Assistance Programs matched the

       6
          The formulas mandated to be used are codified in 42 U.S.C. § 10602(a) and
42 U.S.C. § 10603(a). According to VOCA, funds are to be allocated based on a
combination of Census Bureau population estimates for each state, certified payouts to
victims from eligible state funds from the prior year, and available funding.

                                           -3-
allocations calculated by OJP, and that all funds appropriated had been
awarded. Therefore, we concluded that the OVC awarded the VOCA Victim
Compensation and VOCA Victim Assistance Program funds in a fair and
reasonable manner.

      We also examined the OVC’s methodology and criteria for awarding
discretionary funds under the NFG Grant Program. We determined that the
OVC reviewed applications for their adherence to the national scope of the
program, sent valid applications for external peer review, and recommended
awards based on an evaluation of peer review scores and an internal subject
matter expert evaluation. We then reviewed the OVC’s final funding
memorandum for the NFG Grant Program awards and found that it contained
appropriate justification for the funding decisions. Therefore, we concluded
that the OVC awarded the NFG Grant Program funds in a fair and reasonable
manner.

      The full results of our review of the OVC’s solicitation requirements,
applications, and award processes are discussed in the sections below.

Recovery Act Program Solicitations

       In support of its Recovery Act efforts, the OVC posted solicitations for
three Recovery Act programs. We reviewed those solicitations and found
that each contained the appropriate requirements as described in the
Recovery Act and guidance issued by OMB. However, we identified concerns
related to the performance measures discussed in one of the solicitations.
We relayed these concerns to the OVC in a Management Advisory
Memorandum (MAM) entitled Improving Performance Measures for the Office
for Victims of Crime Awards Authorized by the Recovery Act, dated
April 15, 2009. These concerns have since been resolved, as explained
below.

    Our April 2009 MAM discussed the requirements in the VOCA Victim
Compensation Grant Program solicitation to measure jobs retained based on
Recovery Act funding. Specifically, to measure jobs retained, the solicitation
required award recipients to report the number of claimants that received
Recovery Act funds to help offset economic loss due to victimization.
However, the funding compensates victims for lost wages or other financial
support such as medical expenses, mental health counseling, or funeral
expenses and does not represent jobs retained. As a result, we provided the
following advice to the OVC in our April 2009 MAM:




                                     -4-
  •   We believe VOCA payments are part of the essential services funded
      by the VOCA Victim Compensation Grant Program and should not be
      reported as retained jobs under the Recovery Act.

  •   We believe the OVC should provide detailed and formal guidance
      regarding data collections and reporting in order to prevent data
      inaccuracies and to ensure data compatibility for all award recipients
      receiving Recovery Act funds. At a minimum, this guidance should
      define terms used in performance measures and explain procedures
      for collecting and summarizing the data.

  •   We believe the OVC should require award recipients to provide
      baseline data to measure the true impact of Recovery Act funding.
      Such data should encompass the services provided under these
      programs prior to receiving Recovery Act funding and will serve as a
      starting point for the verification of results achieved under each award.

      Since our April 2009 MAM, these concerns have been addressed by
subsequent guidance issued by OMB, as well as action on the part of the
OVC. Specifically, on June 22, 2009, OMB released a guidance
memorandum on the reporting requirements included in Section 1512 of the
Recovery Act. 7 The guidance states that recipients should not attempt to
report on the employment impact of Recovery Act funds on materials
suppliers and central service providers (indirect jobs) or on the local
community (induced jobs). OJP also released supplemental guidance to
grantees after OMB’s guidance was released and the OVC published both the
OMB and OJP guidance on its website clarifying the reporting requirements.
Additionally, in its response to our MAM, OJP stated that OVC staff will work
with grantees to ensure that each grantee gathers baseline data so that the
program has the basic information needed to measure performance.
Therefore, we consider the issues presented to the OVC in our April 2009
MAM to have been adequately addressed.

Review of the OVC Recovery Act Applications

      We reviewed application documentation for each application funded
under the two Recovery Act VOCA formula programs entitled the VOCA
Victim Assistance Program and the VOCA Victim Compensation Program, as
well as the discretionary grant program entitled the NFG Grant Program, to
determine if each funded application was complete. The VOCA formula and
discretionary programs each had different application requirements. The

      7
          Office of Management and Budget (OMB) Memorandum M-09-21.


                                       -5-
VOCA Victim Assistance and VOCA Victim Compensation Program
applications we reviewed were all complete, but we found that three NFG
Grant Program applications were incomplete. The application requirements
and discrepancies are explained in more detail below.

Formula Program Applications

      For the 109 applications funded under the two Recovery Act VOCA
formula programs – the VOCA Victim Compensation Program and VOCA
Victim Assistance Program – we determined whether each state or territory
submitted all certifications and assurances required by the solicitation and
the Recovery Act. Based on our review, we found that each funded
application was complete with the requested information and certifications. 8

Discretionary Program Applications

      For the 13 applications funded under the discretionary NFG Grant
Program, we reviewed the program solicitation to determine the Basic
Minimum Requirements of the solicitation. 9 Among other requirements,
applicants were required to submit two certifications. One was a certification
as to Recovery Act reporting requirements in which recipients certified under
18 U.S.C § 1001 that that they understood all the requirements of Section
1512(c) of the Recovery Act and would comply with them. 10 In addition,
applicants were required to submit a general certification as to the



       8
          The solicitation required applicants to submit a completed Standard Form 424, a
core government-wide standard data set and form for grant applications; an administrative
and training funds usage statement; the state statute covering the victim compensation
program; a certification of compliance with “state grantee eligibility requirements”; a
description of the applicant’s plan for the collection of the data required for performance
measures; a certification as to Recovery Act reporting requirements; and a certification
consistent with Section 1511 of the Recovery Act regarding requirements for receipt of
Recovery Act funds for infrastructure investments.
       9
           The solicitation required applicants to submit a completed Standard Form 424, a
core government-wide standard data set and form for grant applications; an administrative
and training funds usage statement; a program narrative; a budget narrative and budget
detail worksheet; an indirect cost rate agreement for any proposed indirect costs; resumes
of key personnel; a certification as to Recovery Act reporting requirements; and a
certification consistent with Section 1511 of the Recovery Act regarding requirements for
receipt of Recovery Act funds for infrastructure investments.
       10
          Applicants certify that a false statement in the certification may be subject to
criminal prosecution, including under 18 U.S.C. § 1001.



                                            -6-
requirements for receipt of Recovery Act funds for infrastructure investments
under Section 1511 of the Recovery Act. 11

Recipients with Incomplete Applications

       Based on our review of applications in GMS, we identified one
discretionary award recipient with an incomplete application as of
December 11, 2009. This grantee that was awarded over $490,000 under
the NFG Grant Program excluded the Recovery Act certification for reporting
requirements required by the solicitation. 12 The missing reporting
certification provided assurance that: (1) the grantee understands and will
comply with the reporting requirements of the Recovery Act, (2) the grantee
has been informed that false statements are subject to prosecution and data
is subject to OJP review, and (3) the certifying official for the grantee is
authorized to make these certifications.

      As a result of this omission, the OVC does not have assurance that this
recipient is aware of and will comply with some requirements of the
Recovery Act and the program solicitation. We discussed this concern with
OVC officials and they immediately contacted the grantee in question and
obtained the missing Recovery act certification. As a result, we consider the
issue of the missing Recovery Act certification to have been adequately
addressed.

Review of the OVC Recovery Act Award Process

      As shown in Table 1, the OVC received 127 applications under the
2 VOCA formula programs (VOCA Victim Compensation and VOCA Victim
Assistance Programs); 109 of these proposals were funded. Of the 18
formula applications that were denied, 7 were duplicates, and 11 were not
from applicants that were designated as a state or territory VOCA




       11
           DOJ defines “infrastructure” as projects requiring “bricks & mortar.” Specifically,
“projects resulting in, or directly and substantially affecting, a tangible physical structure or
other similar construction, repair, or major renovation projects.”
       12
            This grantee and a second grantee that received approximately $500,000 did not
submit another required certification as to requirements for receipt of Recovery Act funds
for infrastructure investments pursuant to Section 1511 of the Recovery Act. The other
applicants that did submit this certification required by the solicitation indicated on the
certification that their respective projects did not contain infrastructure investments. We
discussed this concern with OVC officials and they immediately contacted the grantees in
question and obtained the missing Recovery Act infrastructure investment certifications.

                                              -7-
administering agency, as is required by the solicitations. 13 The OVC also
received 174 applications under the VOCA discretionary grant program (the
NFG Grant Program) and funded 13. Of the 161 denied applications, 7 were
duplicate applications, and the remaining 154 were rejected as a result of
the competitive process described later in this report. 14

           TABLE 1. OVC GRANT APPLICATIONS AND AWARDS
                                  APPLICATIONS        APPLICATIONS        APPLICATIONS
           PROGRAM                  RECEIVED            FUNDED               DENIED
 VOCA Victim Compensation
                                       61                  53                   8
  Program
 VOCA Victim Assistance
                                       66                  56                   10
  Program
 NFG Grant Program                     174                  13                 161
 TOTAL                                 301                 122                 179
Source: OJP’s Grants Management System (GMS)

      To ensure that awards were made appropriately, we verified that the
formula allocations used for the VOCA Victim Assistance and VOCA Victim
Compensation Programs were calculated accurately. In addition, we
reviewed the discretionary award process for the NFG Grant Program to
ensure those awards were awarded in a fair and appropriate manner. These
portions of our review are described in more detail below.

Verification of the OVC’s Recovery Act Formula Allocations

       To ensure that allocations were made appropriately, we reviewed the
distribution of funds for the VOCA Victim Compensation Program and the
VOCA Victim Assistance Program and ensured they were made in accordance
with applicable laws and regulations. We found no discrepancies with these
portions of our review, which are described in more detail below.

      VOCA Victim Compensation Program

     Allocations of funds under each formula grant program were posted on
the OVC’s website. Under the VOCA Victim Compensation Program, the
formula mandated in VOCA requires that the amount of compensation

      13
         Each state and territory has one agency that the Governor has designated as the
VOCA administering agency. Only these designated agencies, as defined in the statutes for
VOCA Compensation (42 U.S.C. § 10602 (2007)) and VOCA Assistance programs (42 U.S.C.
§ 10603 (2007)), are eligible for VOCA formula grants.
      14
           Appendices I and II list the awards to each state under the VOCA Victim
Compensation Program and VOCA Victim Assistance Program, respectively, and Appendix III
lists the awards under the NFG Grant Program.

                                          -8-
program funding allocated to eligible programs be 60 percent of the amount
awarded during the “preceding fiscal year,” excluding funds awarded for
property damage. 15 However, if available funding is insufficient to fund the
VOCA program at a minimum of 60 percent of the amount awarded in the
preceding fiscal year, the Director of the OVC may distribute funds using an
alternative method. This alternative method provides each eligible state
crime victim compensation program with the same percentage of total VOCA
program funds that it received the preceding fiscal year.

      Because the $47.5 million in Recovery Act funding designated under
the VOCA Victim Compensation Program was insufficient to provide
60 percent of the amount awarded in the preceding fiscal year, the OVC
allocated funds based on the percentage of the total FY 2009 non-Recovery
Act VOCA Formula Grant funds awarded to each state in accordance with
VOCA. 16 Appendix I details the breakdown of the Recovery Act funding
allocated to each state or territory under the VOCA Victim Compensation
Program.

      During our review, we verified that the amount of allocations made by
the OVC under the VOCA Victim Compensation Program were accurate and
in accordance with the requirements of VOCA. We independently calculated
the VOCA Victim Compensation Program allocations based on VOCA
compensation program certified payouts reported by the state for the
preceding fiscal year, as defined by the OVC, and then compared the results
to the OVC’s VOCA Victim Compensation Program formula allocations. In
addition, we confirmed that the amounts the OVC actually awarded to each
state’s VOCA Victim Compensation Program matched the results of the
formula allocation. Based on our analysis, we found that the OVC correctly
calculated and awarded Recovery Act funding under the VOCA Victim
Compensation Program.

       VOCA Victim Assistance Program

       Under the VOCA Victim Assistance Program, the formula mandated in
VOCA requires that each state receives a base amount of $500,000, and the
eligible territories receive a base amount of $200,000, with any remaining



       15
          42 U.S.C. § 10602 (2007). OVC defines “preceding fiscal year” as the fiscal year
preceding the year of deposits in the Crime Victims’ Fund (2 years prior to the grant year).

       16
         Since the Recovery Act was a special funding source authorized in FY 2009, the
OVC used percentages of the most recent VOCA fund authorization (the FY 2009 non-
Recovery Act appropriation) instead of the preceding fiscal year’s allocations.

                                            -9-
funds allocated to the eligible states and territories based on population. 17
Appendix II details the breakdown of the $47.5 million in Recovery Act
funding allocated to each state or territory under the VOCA Victim Assistance
Program.

      During our review, we independently calculated the VOCA Victim
Assistance Program allocations based on population estimates obtained from
the U.S. Census Bureau, as of July 1, 2008, and compared the results to the
OVC’s VOCA Victim Assistance Program formula allocations. Additionally, we
confirmed that the amounts the OVC actually awarded to each state’s VOCA
Victim Assistance Program matched the results of the formula allocation
shown in Appendix II. Based on our analysis, we found that the OVC
correctly calculated and awarded Recovery Act funding under the VOCA
Victim Assistance Program.

Discretionary Grant Program Award Process

      To ensure that the discretionary awards were made appropriately, we
reviewed the OVC’s process for making the awards. Specifically, we
reviewed the peer review process to ensure it was conducted fairly and in an
appropriate manner. In addition, we reviewed the final award decisions to
ensure that they were not inappropriately influenced by OVC officials. We
found no discrepancies with these portions of our review, which are
described in more detail below.

      Discretionary Grant Program Peer Review Process

      As discussed previously, the OVC received 174 applications under the
VOCA discretionary grant program, the NFG Grant Program. These
applications were internally reviewed by the OVC to determine if the
proposed programs were national in scope and if any applicants submitted
duplicate applications. As a result of the internal review, the OVC rejected
seven duplicate applications. The remaining 167 applications were sent for
an external peer review.

      Applications sent for peer review under the NFG Grant Program were
divided among several panels of peer reviewers. Each peer review panel
consisted of 3 reviewers, and each panel reviewed between 10 and
20 applications. Peer reviewers were selected from a pool of potential
reviewers maintained by the peer review contractor, Lockheed Martin, based
on their qualifications and experience in each of the nine different purpose

      17
           42 U.S.C. § 10603 (a)(5) (2007).


                                          - 10 -
areas listed on the solicitation. 18 Each peer reviewer performed an initial
assessment and rated each criterion listed below in Table 2 on a scale of
0 (unacceptable) to 10 (excellent). Each criterion was assigned a weight
(percentage) by the OVC, also identified in Table 2.

 TABLE 2. CRITERIA AND WEIGHTING FOR EXTERNAL PEER REVIEW
                 OF NFG GRANT PROGRAM APPLICATIONS
                                                                          DISCUSS IF
                                                      WEIGHTED       VARIANCE IN WEIGHTED
                    CRITERIA                         POINT VALUE           SCORE IS
 Project Abstract                                        5%             1 point or more
 Statement of the Problem                               10%             2 points or more
 Project Goals and Objectives                           10%             2 points or more
 Project Design and Implementation                      25%             5 points or more
 Organizational Capability and Project
                                                        20%             4 points or more
    Management
 Budget                                                 15%             3 points or more
 Impact/Outcomes and
    Evaluation/Performance Measure Data                 15%             3 points or more
    Collection Plan
Source: OJP

       After the initial scores were analyzed, the contractor held a consensus
call to discuss any applications that had score variances between peer
reviewers, as defined in Table 2. According to the OVC, the contractor’s role
in the consensus call is to facilitate the discussion between the peer
reviewers. The solicitation manager, an OVC staff member responsible for
overseeing the award process for a solicitation, will also participate to
provide clarification to reviewers without influencing the outcome of the
application review.

      After the consensus call, reviewers updated their assessments and
scores based on discussions during the consensus review. Next, the peer
review contractor ensured that reviewers had made agreed-upon changes
and followed up on any discrepancies. Once the reviewers finalized their
scores, the contractor normalized the scores by applying a mathematical
process to reviewers’ raw scores in order to minimize their individual biases.
After normalizing the scores, the contractor incorporated them into a final
scoring report for the OVC, which reported final scores on a scale of

       18
           The nine purpose areas were: (1) elder abuse, (2) sexual assault, (3) victim
restitution, (4) child abuse, (5) youth victimization (including cybercrime victimization),
(6) victim services in corrections settings, (7) stalking, (8) the implications of forensic
technologies for victims, and (9) training and technical assistance on crime victims’ rights.

                                            - 11 -
0 (unacceptable) to 100 (excellent). The top 5 applications in each of the 9
NFG Grant Program purpose areas scoring above 85 were considered for
funding. 19

      Throughout the peer review process, the OVC solicitation managers
and subject matter experts are involved to provide clarification to
reviewers. However, OJP’s grant application peer review procedures
prohibit the OVC from influencing the outcome of the application peer
review process. To ensure that the OVC’s involvement was appropriate,
we compared the initial scores reported by the peer reviewers for each
application to the final score. Specifically, we attempted to identify
variances in the scores that would indicate that an OVC solicitation manager
or subject matter expert may have attempted to influence the score. For
example, scores that had been changed to meet the minimum criteria for
funding consideration following the consensus call could be an indication of
influence by participants in the consensus call. Based on our review, we did
not identify any applications that were raised above, or lowered below, the
threshold of 85 following the consensus call. As a result, we did not identify
any indications that OVC officials attempted to significantly influence the
external peer review process.

      Discretionary Grant Program Award Decisions

      As part of the normal awarding process, OVC subject matter experts
reviewed the top 5 applications in their assigned purpose area with
normalized scores above 85 and submitted to the OVC Director a list of
applicants that the subject matter experts believed should be funded. In
making the final funding recommendation, the OVC considered factors such
as the peer review score, geographic distribution, the number of jobs
created or retained, and purpose area. Subject matter experts met with
each other and program staff to discuss strengths and weaknesses of each
application and developed the list of funding recommendations for the
Director of the OVC. Once the Director of the OVC approved them, the
funding recommendations were sent to the OJP Assistant Attorney General’s
Office for final concurrence or non-concurrence. The ultimate decision of
funding for the NFG Grant Program lies with the OJP Assistant Attorney
General’s Office, but justification for funding lower ranked applications over




      19
         In some instances there were not 5 applications in a purpose area that scored
above 85. In those cases, the OVC considered additional applications in other purpose
areas.

                                         - 12 -
those ranked higher is required to be included in the funding decision
memorandum. 20

     The OJP Assistant Attorney General’s Office approved the OVC’s
funding recommendations on June 26, 2009. We reviewed the final funding
recommendation list and found that it contained appropriate justification for
the funding decisions under the NFG Grant Program. The successful
applicants under the NFG Grant Program are shown in Appendix III.

Conclusion

       Based on our review, we concluded that the OVC had included all
Recovery Act requirements in its three Recovery Act program solicitations,
allocated and awarded funds in accordance with the applicable provisions of
VOCA for the VOCA Victim Compensation Program and the VOCA Victim
Assistance Program, and that the NFG Grant Program award process was
open and competitive. However, we had concerns with guidance provided
by the OVC to applicants with regard to Recovery Act reporting
requirements. These concerns have since been addressed by providing
updated guidance from OMB on Recovery Act reporting to grantees. Finally,
we identified one incomplete application from an NFG Grant Program award
recipient that was missing a critical Recovery Act certification required by the
solicitation. OVC has since obtained the missing Recovery Act certification,
thereby addressing this concern.




       20
          The requirement to provide justification for funding lower ranked applications over
those ranked higher is required by a March 10, 2009, memorandum issued by the OJP
Acting Assistant Attorney General. This memorandum was provided in OJP’s response to
OIG Audit Report 09-24 Procedures Used by the Office of Juvenile Justice and Delinquency
Prevention to Award Discretionary Grants In Fiscal Year 2007.

                                           - 13 -
                                                                            APPENDIX I

               OVC RECOVERY ACT FORMULA ALLOCATIONS
            FOR THE VOCA VICTIM COMPENSATION PROGRAM 21
                   PERCENT                                      PERCENT
STATE/TERRITORY   OFTOTAL 22     AMOUNT       STATE/TERRITORY   OFTOTAL       AMOUNT
Alabama              1.78        $847,343     Nevada             1.15          $544,273
Alaska               0.31         149,316     New Hampshire      0.13            60,301
Arizona              0.62         293,150     New Jersey         2.97         1,410,671
Arkansas             0.58         276,705     New Mexico         0.42           201,524
California          17.07       8,110,055     New York           5.96         2,829,174
Colorado             1.96         929,310     North Carolina     1.36           647,906
Connecticut          0.60         285,841     North Dakota       0.16            78,313
Delaware             0.27         130,521     Ohio               4.21         2,000,627
District of
Columbia               1.62       770,857     Oklahoma            0.76          360,499
Florida                6.42     3,050,799     Oregon              0.75          356,583
Georgia                2.14     1,015,976     Pennsylvania        3.23        1,536,233
Hawaii                 0.24       115,642     Rhode Island        0.39          185,862
Idaho                  0.72       343,009     South Carolina      2.43        1,153,023
Illinois               6.38     3,029,132     South Dakota        0.08           37,329
Indiana                1.25       592,566     Tennessee           3.10        1,472,799
Iowa                   1.05       498,329     Texas              16.36        7,771,484
Kansas                 0.73       346,403     Utah                1.41          671,400
Kentucky               0.19        89,537     Vermont             0.12           57,951
Louisiana              0.49       233,894     Virginia            0.71          335,439
Maine                  0.09        42,289     Washington          1.98          938,446
Maryland               1.20       570,638     West Virginia       0.73          348,230
Massachusetts          0.57       271,484     Wisconsin           0.56          264,175
Michigan               0.75       355,800     Wyoming             0.36          168,894
Minnesota              0.78       369,897     American Samoa      0.00                0
Mississippi            0.26       122,690     Guam                0.00                0
                                              North Mariana
Missouri               2.00       951,498     Islands            0.00                 0
Montana                0.19        90,582     Puerto Rico        0.31           145,139
Nebraska               0.03        15,663     Virgin Islands     0.05            24,799
Source: OVC website, http://www.ojp.usdoj.gov/ovc/fund/recoverycvfa2009.html




       21
         Differences in totals are due to rounding (the sum of individual numbers prior to
rounding may differ from the sum of the individual numbers rounded).
       22
         Percent of total column was calculated by dividing each individual state’s award
amount by the total amount awarded of $47.5 million.

                                            - 14 -
                                                                                         APPENDIX II
                            OVC RECOVERY ACT FORMULA ALLOCATIONS
                           FOR THE VOCA VICTIM ASSISTANCE PROGRAM 23
                   POPULATION      PERCENT                   STATE/                        PERCENT
                          24
   LOCATION                        OFTOTAL     AMOUNT      TERRITORY       POPULATION      OFTOTAL       AMOUNT
Alabama                4,661,900    1.51      $808,000    Nevada            2,600,167       0.84        $672,000
                                                          New
Alaska                  686,293     0.22       545,000    Hampshire          1,315,809       0.43        587,000
                                                                                                        1,074,00
Arizona                6,500,180    2.11       930,000    New Jersey         8,682,661       2.82              0
Arkansas               2,855,390    0.93       689,000    New Mexico         1,984,356       0.64        631,000
                                                                                                        1,789,00
California        36,756,666        11.92    2,931,000    New York          19,490,297       6.32              0
                                                                                                        1,110,00
Colorado               4,939,456    1.60       827,000    North Carolina     9,222,414       2.99              0
Connecticut            3,501,252    1.14       732,000    North Dakota         641,481       0.21        542,000
                                                                                                        1,260,00
Delaware                873,092     0.28       558,000    Ohio              11,485,910       3.72              0
District of
Columbia             591,833        0.19       539,000    Oklahoma           3,642,361       1.18        741,000
Florida           18,328,340        5.94     1,712,000    Oregon             3,790,060       1.23        751,000
                                                                                                        1,323,00
Georgia                9,685,744    3.14     1,141,000    Pennsylvania      12,448,279       4.04              0
Hawaii                 1,288,198    0.42       585,000    Rhode Island       1,050,788       0.34        569,000
                                                          South
Idaho              1,523,816        0.49       601,000    Carolina           4,479,800       1.45        796,000
Illinois          12,901,563        4.18     1,353,000    South Dakota         804,194       0.26        553,000
Indiana            6,376,792        2.07       922,000    Tennessee          6,214,888       2.02        911,000
                                                                                                        2,109,00
Iowa                   3,002,555    0.97       699,000    Texas             24,326,974       7.89              0
Kansas                 2,802,134    0.91       685,000    Utah               2,736,424       0.89        681,000
Kentucky               4,269,245    1.38       782,000    Vermont              621,270       0.20        541,000
                                                                                                        1,014,00
Louisiana          4,410,796        1.43       792,000    Virginia           7,769,089       2.52              0
Maine              1,316,456        0.43       587,000    Washington         6,549,224       2.12        933,000
Maryland           5,633,597        1.83       873,000    West Virginia      1,814,468       0.59        620,000
Massachusetts      6,497,967        2.11       930,000    Wisconsin          5,627,967       1.83        872,000
Michigan          10,003,422        3.24     1,162,000    Wyoming              532,668       0.17        535,000
                                                          American
Minnesota              5,220,393    1.69       845,000    Samoa                 64,827       0.02        204,000
Mississippi            2,938,618    0.95      $694,000    Guam                 175,991       0.06        212,000
                                                          North Mariana
Missouri               5,911,605    1.92       891,000    Islands               86,616       0.03        206,000
Montana                  967,440    0.31       564,000    Puerto Rico        3,954,037       1.28        762,000
Nebraska               1,783,432    0.58       618,000    Virgin Islands       109,840       0.04        507,000
Source: OVC website, http://www.ojp.usdoj.gov/ovc/fund/recoverycvfa2009.html



                  23
                    Differences in totals are due to rounding (the sum of individual numbers prior to
           rounding may differ from the sum of the individual numbers rounded).
                  24
                    Population statistics are as of July 1, 2008. As of this date, the U.S. Census
           Bureau estimates the total population of the United States to be 304,059,724.

                                                      - 15 -
                                                                         APPENDIX III

                     OVC RECOVERY ACT AWARDS FOR THE
                            NFG GRANT PROGRAM
                                                                               AMOUNT
  AWARD NUMBER      LOCATION    GRANTEE ORGANIZATION       PURPOSE AREA        AWARDED
                               Council of State         Victim Services in
 2009-SZ-B9-K001      KY                                                       $363,644
                                 Governments              Corrections
                               Research Triangle
 2009-SZ-B9-K002      NC                                Sexual Assault          493,799
                                 Institute
 2009-SZ-B9-K003      WI       FORGE, Inc.              Sexual Assault          293,209
 2009-SZ-B9-K004      CA       Youth ALIVE!             Youth Victimization     406,600
                               National Center for
 2009-SZ-B9-K005      DC                                Stalking                347,080
                                 Victims of Crime
                               National Center for
 2009-SZ-B9-K006      DC                                Victim Restitution      185,608
                                 Victims of Crime
                               National Crime
 2009-SZ-B9-K007      VA                                Youth Victimization     500,000
                                 Prevention Council
                               San Diego University
 2009-SZ-B9-K008      CA                                Elder Abuse             497,922
                                 Research Foundation
                                                        Forensic
                               National Sherriff’s
 2009-SZ-B9-K009      VA                                Technology and          288,522
                                 Association
                                                        Victims
                                                        Forensic
                               National Center for
 2009-SZ-B9-K010      DC                                  Technology and        238,189
                                 Victims of Crime
                                                          Victims
                               Girls Educational and
 2009-SZ-B9-K011      NY          Mentoring Services,   Sexual Assault          385,837
                                  Inc.
 2009-SZ-B9-K012      CA       Alliant University       Child Abuse             499,844
                               University of Texas at
 2009-SZ-B9-K013      TX                                Child Abuse             499,746
                                  Austin
      TOTAL           13                                                      $5,000,000
Source: OJP’s GMS




                                           - 16 -
